I

No 20-6241

In The

Supreme Court of the United States
Lisa Marie Smith PETITIONER

Vs
School District of Philadelphia

Kelly Services Inc. RESPONDENT

DECLARATION OF SERVICE
I Lisa Marie Smith do swear and declare that on January 7, 2021 as required by the U. S. Supreme
Court rules 39 and 44 I served the enclosed Petition for rehearing on Counsel to the above parties
to be served, by depositing an envelop containing one copy of the above document in the United States
Mail properly addressed to names to be served as follows with US postage prepaid.

Clerk of the court
Scott S. Harris
Supreme Court of the United States
1 First Street, N. E.
Washington, DC 20543-0001
Council for the Respondents
SEYFARTH SHAW LLP
Eric J. Janson Esquire
975 F. STREET N.W.
Washington DC 2004
(202) 828- 3532

